LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

October 21, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20A68:

JOHN H. MERRILL, ALABAMA SECRETARY
PEOPLE FIRST OF ALABAMA, ET AL.

OF

STATE,

ET AL. V.

Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae League of Women Voters of Alabama and the American Association of
University Women referenced above contains 4,715 words, excluding the parts of the

document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 21st day of October 2020.

